OFFICE OF INSPECTOR GENERAL


AUDIT OF THE INTER-AMERICAN
FOUNDATION'S FINANCIAL
STATEMENTS FOR FISCAL
YEARS 2012 AND 2011
AUDIT REPORT NO. 0-IAF-13-003-C
November 15, 2012




WASHINGTON, DC
Office of Inspector General
                                                                                NOV 15 2012
MEMORANDUM

TO:                  IAF President and CEO, Robert N. Kaplan

FROM:                AIG/A, Timothy E. Cox lsi

SUBJECT:             Audit of the Inter-American Foundation's Financial Statements for Fiscal Years
                     2012 and 2011 (Audit Report No. 0-IAF-13-003-C)

With this memorandum, the Office of Inspector General (OIG) transmits the audit report
prepared by the certified public accounting firm of Brown & Company, CPAs, PLLC, on the
financial statements as of September 30, 2012 and 2011, of the Inter-American Foundation
(IAF). OIG contracted with this independent auditor to audit the financial statements.

The independent auditor expressed an unqualified opinion on IAF's fiscal year 2012 audited
financial statements and notes. The report states that the financial statements presented fairly,
in all material respects, IAF's financial position, the net cost of operations, the changes in net
position, and budgetary resources for the years ended September 30, 2012 and 2011, in
conformity with accounting principles generally accepted in the United States of America.

The report contains no material weaknesses or significant deficiencies in IAF's internal control
over financial reporting and no instances of noncompliance with selected provisions of
applicable laws and regulations.

We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; generally accepted government auditing standards issued by the
Comptroller General of the United States; and the Office of Management and Budget Bulletin
07-04, Audit ReqUirements for the Federal Financial Statements, as amended.

In connection with our contract, we reviewed the independent auditor's related audit
documentation. Our review was different from an audit; in accordance with the auditing
standards discussed above, our review was not intended to enable us to express, and we do
not express, an opinion on IAF's financial statements. Also, we did not express conclusions on
the effectiveness of IAF's internal control or on IAF's compliance with other laws and
regulations.

The independent auditor was responsible for the attached auditor's report dated November 1,
2012 and the conclusions therein. Our review disclosed no instances where the independent
auditor did not comply, in all material respects, with the auditing standards discussed above.


U.S. Agency for International Development
1300 Pennsylvania Avenue, /'NIl
Washington, DC 20523
http://oig.usaid.gov
The Office of Inspector General appreciates the cooperation and the courtesies extended to our
staff and the staff of Brown & Company, CPAs, PLLC, during the audit. If you have questions
concerning this report, please contact Rohit Chowbay at (202) 712-1317.
            INTER-AMERICAN FOUNDATION




FINANCIAL STATEMENTS AND INDEPENDENT AUDITOR'S REPORT

      For the Fiscal Years Ended September 30, 2012 And 2011
                        INTER-AMERICAN FOUNDATION
                           FINANCIAL STATEMENTS
            FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011



TABLE OF CONTENTS


AGENCY HEAD MESSAGE…………………………………………………………………………………… 3


MANAGEMENT DISCUSSION AND ANALYSIS…………………………………………………………… 11


PERFORMANCE SECTION…………………………………………………………………………………… 13


FINANCIAL SECTION

   CFO LETTER……………………………………………………………………………………………… 26

   INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS……………………… 28

   INDEPENDENT AUDITOR'S REPORT ON INTERNAL CONTROL……………………………………30

   INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE WITH LAWS AND REGULATIONS… 31

   BALANCE SHEET…………………………………………………………………………………………32

   STATEMENT OF NET COST………………………………………………………………………………33

   STATEMENT OF CHANGES IN NET POSITION……………………………………………………… 34

   STATEMENT OF BUDGETARY RESOURCES………………………………………………………… 35

   NOTES TO THE FINANCIAL STATEMENTS……………………………………………………………36
                Inter-American Foundation
                An Independent Agency of the U.S. Government




                PERFORMANCE AND ACCOUNTABILITY REPORT (PAR)

Message from the President

The Inter-American Foundation (IAF), an independent foreign assistance agency of the United
States government, promotes and invests in citizen-led development in Latin America and the
Caribbean to help communities thrive. Created in 1969, the IAF responds to innovative,
participatory and sustainable self- help development projects proposed by grassroots groups and
organizations that support them. The IAF encourages partnerships among community
organizations, businesses and local governments directed at improving the quality of life for poor
people and strengthening their capacity to engage as citizens in their communities. To contribute to
a better understanding of the development process, the IAF shares its experiences and the lessons it
learns with its grantee partners.

The IAF is governed by a nine-person board of directors appointed by the President of the United
States and confirmed by the U.S. Senate. Six members are drawn from the private sector and three
from the public sector. The board is assisted by an advisory council. A president, appointed by the
board, serves as the Inter-American Foundation’s chief executive officer, managing a staff of 47
employees based in Washington, D.C. The IAF is organized into five offices: Executive, including
the president and general counsel; Program; Operations; External and Governmental Affairs; and
Evaluation. An organization chart can be found on page 8.

Despite positive macroeconomic performance in some countries, poverty, glaring inequality and social
exclusion persist and, together with chronic violence and insecurity, are at the root of the most serious
challenges the United States faces in our relations with the countries of the region. In this context, and
consistent with the Presidential Directive on Global Development, the IAF contributes to U.S. foreign
policy objectives by providing its specialized expertise, experience and programmatic focus on citizen-
led community development so that poor and marginalized groups have an opportunity to participate in
local economic growth and engage in civic life. The IAF coordinates with and complements other U.S.
government agencies and mobilizes local and international private contributions, including from local
partners and community beneficiaries of the IAF’s assistance.

The IAF is effective for the following reasons:

•   It is responsive to the challenges, priorities and solutions emerging directly from organized poor
    communities, who demonstrate their ownership and responsibility towards improving their
    circumstances.
•   It is results-oriented, investing modest grants to support projects that yield high returns and help
    communities manage risk, and strengthening the capacity of local groups to continue working after
    the IAF’s support ends.

                                                               3
 •   It insists that communities show leadership and that they commit their own resources to ensure that
     projects are effective and sustainable. On average, they provide about $130,000 for every $100,000
     contributed by the IAF.
 •   It is efficient and operates with minimal bureaucracy.
 •   It has the flexibility to adjust quickly to changing conditions and continue engagement at the
     community level even when bilateral relations are strained.

In 2012 the IAF invested in 58 new grants and 68 supplemental grants to organizations in 18 countries.
Many of these grants directly benefit African descendants, indigenous communities, persons with
disabilities and disadvantaged women and youth, providing opportunities for these historically excluded
groups to participate more fully in economic and civic life. Application of the Grassroots Development
Framework (GDF), the IAF’s analytical tool for ensuring that investments contribute meaningfully to
real community development results, allows the agency to choose higher-impact projects and assess how
its investments yield long-term development benefits that extend far beyond the grantees’ immediate
objectives.

Effective community development requires citizens themselves to play a protagonist role. All IAF
grantees are required to contribute to their projects in cash or in kind, as the IAF’s experience shows
that community groups are more likely to succeed if they have a stake in the outcome. The IAF also
expects grantees to mobilize additional resources and collaborate with their local and central
governments, local businesses and other organizations so that progress continues after IAF funding
ceases. As a result of these efforts, counterpart resources committed in 2012 totaled $23.3 million,
more than matching the IAF’s investment of $16.3 million.

As a small agency with relatively limited resources, the IAF can only achieve impact at scale by
working in partnership with and inspiring others who can invest in helping poor communities thrive.
One example, created by the IAF ten years ago, is the RedEAmérica network of corporate foundations
in the region. Today, that network has grown to 70 dues-paying members supported by over 350
corporations in 11 countries. When the IAF invests in citizen-led development efforts with
RedEAmérica members, they commit to providing more than double the IAF’s contribution. More
important is the fact that RedEAmérica members or their parent corporations continue to invest in
grassroots development on their own, applying tools created with the IAF to select projects and track
results. In 2012, the IAF and RedEAmérica renewed their mutual commitment to expand and
strengthen RedEAmérica over the next five years. The time is ripe for the IAF to approach other private
partners as well to increase the leverage of its appropriation and draw more resources into effective
citizen-led community development investments.

The Presidential Directive on Global Development calls for coordination among U.S. agencies. The IAF
has taken concrete steps in the last two years to do so and will continue to deepen and broaden efforts in
FY13 and beyond. The IAF’s specialized expertise and assistance complements the efforts of other
agencies and increases the return on the total U.S. investment, ensuring that more poor and marginalized
communities will benefit. The IAF collaborates with the U.S. Department of State and others to advance
important foreign-policy priorities through the Partnership for Growth (PfG), and broader regional
initiatives and projects such as the Inter-American Social Protection Network (IASPN), the Joint Action
Plan to Eliminate Racial and Ethnic Discrimination and Promote Equity (JAPER) and the Americas
Partnership on Social Inclusion and Equality (APSIE).




                                                     4
                            ANNUAL PERFORMANCE REPORT (APR)

                  Accomplishments of the Annual Performance Measures for FY 2012

In FY 2012 the Inter-American Foundation received an appropriation of $22,500,000 for program and
program support activities, which was supplemented by $7,500,000 for development grants from the
Social Progress Trust Fund, by $183,897 in carry-over funds and by $1,054 in donations from external
sources. The total budget authorized for FY 2012 was $30,184,951.

  Goal One. Fund effective development projects that improve the quality of life as evidenced by
  measurable indicators.
  Performance Measure: Grants funded in the fiscal year that target a better quality of life for
  beneficiaries as evidenced by measurable indicators.
   FY-09        FY-10        FY-11      FY-12       FY-12        FY-12 Rating        FY-13       FY-14
  Results      Results      Results     Target      Results                          Target      Target
  118          121          94          103         126          Over target         75          75
  Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

The IAF responded to the best of the approximately 600 proposals it received in FY 2012 by awarding
58 new grants to grassroots and nongovernmental organizations. The IAF also provided additional
funding to 68 organizations funded in prior years that show promise in exceeding their objectives.

New grantees include organizations that are conducting conservation and community tourism programs
in protected areas. Several organizations are helping communities mitigate the effects of climate change
through prevention activities and more diversified agricultural production. Some are fostering pride in
cultural heritage through revitalizing traditional crafts. Others are helping women and young adults
participate in community development planning and improve their microenterprises as a source of
income. Communities will have access to subgrant funds supporting their enterprises and other
development initiatives. Many grantee partners are focusing on market access.

  Goal One. Fund effective development projects that improve the quality of life as evidenced by
  measurable indicators.
  Performance Measure: Percentage of grantees whose funding ends in the prior fiscal year that met
  or exceeded outcome goals specified for each project.
  FY-09       FY-10        FY-11       FY-12        FY-12        FY-11         FY-13       FY-14
  Results     Results      Results     Target       Results      Rating        Target      Target
  73%         86%          86%         80%          75%          Under         80%         80%
                                                                 target
  Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.




                                                    5
Of the 72 grantee partners whose funding ended in fiscal 2011, 75 percent (54 grantee partners) reported
meeting or exceeding the goals specified for each project. Those who fell short of their goals cited staff
changes, conflict in the communities served, or their partners’ lack of cooperation as reasons.

    Goal Two: Stimulate and encourage broader participation in the development process and broader
    engagement in democratic practices.
    Performance Measure: Grants awarded to groups and organizations of the marginalized and
    disenfranchised, including African descendants, indigenous peoples, persons with disabilities,
    women and young people.
    FY-09       FY-10        FY-11        FY-12       FY-12        FY-11        FY-13     FY-14
    Results     Results      Results      Target      Results      Rating       Target    Target
    81          79           70           72          71           On target    53        53
    Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.


Seventy-one grants and supplemental awards were made to groups and organizations of the
marginalized and disenfranchised, including African descendants, indigenous peoples, people
with disabilities, women and young people for a total value of $10,528,356.

•    Twelve new and supplemental grants, valued at $1,904,169 were awarded to
     organizations serving African descendants in Brazil, Colombia, Ecuador, Peru, Belize, the
     Dominican Republic, and Haiti.
•    The IAF’s long history of support for indigenous peoples continues with new and
     supplemental awards, valued at $4,623,225 that are reaching 33 organizations in Bolivia,
     Brazil, Peru, Mexico, Ecuador, El Salvador, Nicaragua, and Honduras. A grant to the
     Universidad de la Cordillera in Bolivia will work in various countries with the Network
     of Observatories Against Racism in Latin America to develop the members’ skills to
     document racism and work to eliminate it.
•    The IAF funded 14 new and supplemental awards to organizations working with young
     people on job training skills, environmental planning, local development, and sports and
     cultural activities for a total of $2,024,570.
•    The IAF awarded 10 new and supplemental grants totaling $1,569,242 to organizations
     focused on supporting women as they increase their productivity, expand small
     businesses, defend themselves from gender violence, and work to protect the
     environment.
•    The IAF has a long-term commitment to support organizations that work with persons
     with disabilities (PWD). This year it awarded one new grant and one supplemental grant
     to organizations supporting the inclusion of PWDs.




                                                    6
  Goal Three: Draw more resources into grassroots development.
  Performance Measure: Total committed dollar amount of in-kind and cash counterpart mobilized
  by grantees.
  FY-09        FY-10       FY-11       FY-12        FY-12        FY-12 Rating   FY-13     FY-14
  Results      Results     Results     Target       Results                     Target    Target
  $21.6m       $19.2m      $20.3       $21.5        $22m         Above target   $13.1m $13.1m
  Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

IAF grantees will mobilize resources valued at more than $22 million for grants awarded in 2012.
For every dollar of an IAF award, grantees are contributing $1.38. These amounts are verified by
data verifiers and auditors during the grant period. Over its 40 years, the IAF’s investment of $700
million in grant funds has generated counterpart resources worth $1 billion.

  Goal Four: Further the understanding and effectiveness of grassroots development by
  disseminating the IAF’s experiences and approach and funding research.
  Performance Measure: Funded fellowships supporting doctoral research on related topics that adds
  to the body of knowledge related to grassroots development.
  FY-09        FY-10       FY-11        FY-12       FY-12        FY-11         FY-13      FY-14
  Results      Results     Results      Target      Results      Rating        Target     Target
  15           15          15           15          16           Above target 15          15
  Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

The IAF awarded 16 Grassroots Development Fellowships in 2012 for field research conducted
by Ph.D. students who have advanced to candidacy in U.S. universities. The Fellows were
selected on the strength of their academic record, their proposals and their potential contribution
to grassroots development.

A unique feature of the IAF program is the mid-year meeting that gives Fellows an opportunity to
share the results of their work with each other, with the IAF and with the Academic Review Panel
that selected them. The meeting of the 2010-2011 cycle resulted in the decision of nine Fellows to
present their work in two back-to-back panels titled “Re-Assessing the Role of the Grassroots at
the Bicentennial,” which were scheduled at the Congress of the Latin American Studies
Association (LASA) held in May 2012. The IAF assisted with filing the application under its
sponsorship and with coordination, but the panels were otherwise organized by the Fellows. Kevin
Healy, IAF representative for Bolivia and an internationally recognized scholar in his own right,
served chair for both sessions; two members of the IAF’s Academic Review Committee joined the
panels as discussants.

In 2012, the IAF invited Fellows to submit manuscripts to its second juried competition. The
anonymous peer review by members of the Academic Review Committee resulted in the
selection of two articles for publication in the 2012 journal.




                                                   7
  Goal Five: Build upon and enhance current efficiency measures.
  Performance Measure: Reduction in the portion of IAF’s budget spent on program support.
  FY-09       FY-10        FY-11       FY-12        FY-12        FY-11         FY-13    FY-14
  Results     Results      Results     Target       Results      Rating        Target   Target
  26.6%       27.9%        30.5%       30%          29.6%        Met target    30%      30%
  Data Source: IAF official budget records, annual reports and submissions to OMB and Congress.

Taking into account total program costs, including grantee counterpart resources, drops this portion
to 17 percent in FY 2012. Applying guidelines of the American Institute of Certified Public
Accountants (AICPA) Guide for Not-for-Profit Organizations to calculate the IAF’s overhead
expenditure yields a figure of about 13 percent, which is highly competitive with private foundations
and other not-for-profit organizations.

It is important to note that the IAF operated below its already-lean structure of 47 staff positions
during 2012. While delays in filling vacancies resulted in a small savings, they also left the IAF
understaffed. This deficiency was compounded by the departure of two senior employees whose
many years of experience at the IAF and elsewhere in the US government had allowed them to
assume multiple functions. Achieving full staffing in FY 2013 is essential to achieving program
goals.

Most administrative and technical functions continued to be outsourced in 2012 through longstanding
inter-agency agreements with the Bureau of the Public Debt (BPD) of the U.S. Department of the
Treasury and the National Business Center (NBC) of the Department of the Interior. Outsourcing has
streamlined operations, lowered overhead and brought a depth of expertise to these functions that the
IAF could not otherwise afford. BPD continued to provide services related to procurement,
accounting, the budget, travel and information technology (IT); NBC continued to provide payroll
and human resource services that included timekeeping, processing and reporting personnel actions,
and to manage online applications such as the Federal Personnel and Payroll System (FPPS) and
Employee Express. Since FY 2009, the IAF has participated with NBC in E-Gov initiatives to
improve personnel operations, and since FY 2010, employees have accessed their files through the
eOPF project that converted all records in (OPF) to electronic format.

Thanks to BPD and IPP’s excellent technical support during the pilot period in 2011, the Internet
Payment Platform (IPP) proved very efficient. Under its agreement with IAF, BPD’s IT support
included security, network administration and help-desk services. The data center at the IAF’s offices
has six servers that are maintained remotely through a VPN connection by IT specialists at BPD’s
facility in West Virginia.

The IAF continued to use the Central Contractor Registration, the sole repository for pertinent data
for all USG suppliers. Integration allows BPD and the IAF to more efficiently maintain current data
related to suppliers. The IAF is supporting the Financial Management Line of Business (FMLOB)
Initiative by using BPD’s Oracle Federal Financials System and related accounting and procurement
services and BPD has been reporting FMLOB metrics for IAF for the past three years. The Oracle
platform provides real-time, user-friendly financial reports. Since FY 2005, the IAF has been using
Gov-Trip, the government-wide E-Gov Travel system integrating online booking with the automated
authorization and vouchering process allowing travelers to attach receipts electronically.
                                                    8
A modest portion of program support funds is invested in staff development, including through
online training, workshops and seminars, and BPD and NBC’s on-site classes. IAF subscribes to the
Small Agency Council’s training program offering, for a $2,000 annual fee, between 25 and 30
courses each year through the Graduate School of the U.S. Department of Agriculture.

Volunteer internships offer work experience to qualified undergraduate and graduate students from
across the country, who assist employees in IAF’s various offices. The IAF approved six internships
in FY 2012.

In FY 2009, the IAF transitioned to General Services Administration’s Federal Technology
Service (GSA/FTS) Networx and WITS3 new government-wide telecommunications contracts.
This resulted in a savings of 35 percent in expenditures for domestic and international telephone
services in 2012.

In April 2012, the IAF relocated its office from Arlington, Virginia, to Washington, D.C. Per IAF’s
cost-benefit analysis, the reduction in rental space from 18,000 square feet to 14,332 square feet will
result in a net savings of $1 million over ten years. The IAF also upgraded its infrastructure in its
new facility by procuring a new Voice Over Internet Protocol phone system (VOIP), which is
expected to improve international communications, and new audiovisual equipment, which should
allow for the use of a single space for multiple meetings.

The IAF continues to receive unqualified audits of its financial statements, internal controls over
financial reporting, and its compliance with relevant federal laws and regulations. I am pleased to
introduce the IAF’s FY 2012 financial statements, which reflect the IAF’s mission and core
principles, including prudent stewardship of resources and transparency of our operations.

The financial statements and performance results data are complete, reliable and in accordance
with the Office of Management and Budget (OMB) requirements and in conformity with
generally accepted accounting principles. The IAF has appropriate management controls in
place to ensure that all internal controls are operating in accordance with applicable policies and
procedures and are effective in meeting the requirements imposed by Federal Managers’ Financial
Integrity Act (FMFIA) and the Federal Financial Management Improvement Act (FFMIA).


Signed:

/s/
Robert N. Kaplan
President and CEO




                                                   9
                              Inter-American Foundation
                                                           as of January 1, 2012




                                                Board of Directors                              Advisory Council




                                                      President                              Office of the General Counsel
                                                                                                           General Counsel




                                                                Office of External and                      Office of Evaluation
Office of Operations        Office of Programs
  Chief Operating Officer   Vice President for Programs         Governmental Affairs                             and Audit
                                                          Director for External and Governmental Affairs   Director for Evaluation and Audit




                                                                          10
                      MANAGEMENT DISCUSSION AND ANALYSIS

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from
its experience, and uses the lessons learned to improve its own grant making decisions and to
advance the knowledge and success of development practitioners, donors, and policy makers.

Mission and Organizational Requirements

The Inter-American Foundation funds self-help and participatory development efforts in ways that
support democracy and strengthen the bonds of friendship and understanding in the Western
Hemisphere. The IAF supports initiatives proposed by the organized poor in Latin America and the
Caribbean to improve their quality of life. IAF staff, representing the American government and
people, maintain a supportive relationship with the grantees and their beneficiaries during the
course of projects and, frequently, beyond. The IAF’s experiences are documented and shared with
a broad and diverse audience.

The IAF vision is a Latin America and the Caribbean region of thriving communities where people
direct their own lives as individuals and citizens. The IAF will continue to respond to the best
ideas from the region, empowering people by strengthening a vast infrastructure of community
groups and nongovernmental organizations that has become a highly effective and transparent
channel for productive foreign assistance. Because a broader resource base is crucial to an
expanded IAF program, the IAF will seek additional resources from various sources. The IAF will
build on its well-documented record of drawing local government, businesses, corporate
foundations and transnational communities into grassroots development. Through disseminating
the lessons of its investment to other donors, to policymakers and to American taxpayers, the IAF
can continue to lead the development community toward a better understanding of the importance
and effectiveness of citizen-led community development in which the organized poor play a
leading role.




                                                11
The FY 2012 funding actions are divided among primary program areas as follows:



                                           FY12 Grants by Program Area




                                 Research/dissemination,
                                         85,675
                                    Legal assistance ,
                                        612,280
                               Health , 439,484
                   Cultural expression ,
                                                                                Agriculture/food
                        751,524
                                                                             production , 4,372,572
        Environment, 2,040,832




           Corporate social
        investment , 864,981

              Enterprise development ,                                   Education/training,
                    2,983,652                                                4,290,992




                    FY12 GRANTS FUNDED BY PRIMARY PROGRAM AREA

                    Program Area                             IAF $                  Funding Actions
     Agriculture/food production                               4,372,572                               46
     Education/training                                        4,290,992                               32
     Enterprise development                                    2,983,652                               21
     Corporate social investment                                  864,981                              5
     Environment                                               2,040,832                               10
     Cultural expression                                          751,524                              4
     Health                                                       439,484                              3
     Legal assistance                                             612,280                              4
     Research/dissemination                                        85,675                              1
    * Total                                                   16,441,992                              126




                                                             12
                               FY 2013 PERFORMANCE MEASURES


Mission: Promoting and investing in grassroots development to help communities thrive.

Vision: Thriving communities throughout Latin America and the Caribbean, where people direct their
own lives as individuals and citizens.

Strategic Goal One: Support the coordinated efforts of the poor to improve their material
circumstances, strengthen their organizations, and enhance the social and economic environment for
community-led development.

Problem/need/challenge addressed: Thriving communities depend on their citizens’ capacity to engage
each other in public and private association and to shape and respond to economic and social
opportunities. IAF promotes grassroots development through initiatives conceived, led and implemented
by community-based organizations of the poor and closely-linked support organizations, often
nongovernmental organizations (NGOs). Communities that have the capacity to take the lead in thinking
and working through their own development challenges form the democratic foundation that is the
region’s best hope for lasting peace, security, and economic progress.

By supporting these efforts of the organized poor, the IAF materially advances U.S. strategic interests in
the region. By being careful to base our investments on evidence about what works in grassroots
projects, we are adding to an empirically grounded body of knowledge about how to address these
challenges more effectively.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works in
community-led development — all closely linked to a sophisticated monitoring and evaluation system
that measures results and helps partners adapt strategically to changing circumstances.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF is also participating in and
developing inter-agency initiatives involving the Department of State, USAID, the Department of
Housing and Urban Development, and the Environmental Protection Agency.
Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants (enabling the IAF to perform its
grant making and evaluation functions in the most cost-effective manner).
Strategy and key measures: The IAF identifies and supports the best ideas for improving standards of
living and enhancing civic participation in democratic processes and institutions. Significantly, these
ideas come from the communities themselves, and local civil society organizations supporting these
communities. We also seek promising new ways to generate knowledge and transformative results for
our partner organizations and their communities. We continually sharpen our funding criteria to
implement this strategy and align our evaluation system with our evolving needs.

IAF helps improve the material conditions and associative capacity of communities by supporting
projects in a diverse array of thematic areas: income generation; small business development;
community-based natural resource management; water supply and sanitation; sustainable agricultural
development; improved access to domestic and foreign markets; enhanced public security and

                                                    13
community resilience in contexts of chronic violence; improved housing and nutrition; cultural
expression and identity; collaborative linkages between rural and urban communities; and others.

Before funding begins, all IAF-supported organizations identify specific indicators that are measured
periodically — usually, twice a year — to provide empirical evidence of results generated. In addition,
the IAF offers its partners support for mid-course learning activities, to enable partners to reflect on the
progress of their initiatives and identify and respond to challenges and opportunities not evident before
the projects began. The IAF conducts ex-post evaluations of a subset of its projects, revisiting the
participating communities five years after project completion, to assess evidence of long-term impacts.

Finally, IAF is engaging with funding partners — public and private and in the United States and abroad
— to channel greater and more sustainable flows of financial support to strong projects throughout the
region.

       Performance Measure 1.1: Funding actions in the fiscal year that enhance communities’
       capacities to design and execute development projects and materially improve the quality of life
       of beneficiaries, as evidenced by measurable indicators.

       Performance Measure 1.2: Percentage of projects ending in FY 2012 that met or exceeded
       outcome goals specified for each project.

       Performance Measure 1.3: Specific accomplishments reported by grantee partners active in FY
       2012, evidenced by measurable indicators, that improved the quality of beneficiaries’ lives,
       changed the social and economic contexts in which they act, or enhanced their communities’
       capacity to take the lead in their own development.


Strategic Goal Two: Promote the social inclusion and civic participation of traditionally marginalized
groups.

Problem/need/challenge addressed: Members of traditionally marginalized groups — including
women, African descendents, indigenous peoples and people with disabilities — are disproportionately
represented among the poor in Latin America and the Caribbean. They, as well as people with LGBT
identity, are also are most likely to be excluded from the civic life of their communities.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works best in
promoting greater and more effective participation of traditionally marginalized groups.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF will undertake an initiative
involving the Department of State (Americas Partnership on Social Inclusion and Equality), to promote
social inclusion in six countries. This will result in an inter-agency transfer of $400,000 to the IAF.
Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants, enabling the IAF to perform its
grant- making and evaluation functions in the most cost-effective manner.
Strategy and key measures: The IAF makes a deliberate effort to identify and work with communities
of traditionally marginalized groups and with the associations and networks that represent their interests.
Special outreach helps bring new ideas from these groups into our program pipeline. The IAF also

                                                     14
supports conferences, exchanges, collaborative analytical efforts and other measures to help these
communities network and learn from each other.

       Performance Measure 2.1: Funding actions in the fiscal year that enhance the opportunities for
       traditionally marginalized groups to become effective actors in the design and execution of
       projects that improve their quality of life and their participation in the development process.

       Performance Measure 2.2: Events, exchanges and other knowledge-generation efforts to
       enhance the participation of traditionally marginalized groups in the development process and
       contribute to what is known about how these groups can most effectively take action to improve
       their quality of life.

       Performance Measure 2.3: Specific accomplishments, reported by project partners active in FY
       2012, evidenced by measurable indicators, that improved the quality of life of traditionally
       marginalized groups and their opportunities to participate in the development process.


Strategic Goal Three: Make knowledge-generation and knowledge- management an integral part of our
work, informing new approaches for smarter investments by IAF and others.

Problem/need/challenge addressed: The economic, social, political and technological contexts in
which our community-based partners live and work are changing at unprecedented speed. Consequently,
the need for careful, continuous attention to the generation, distribution and application of new
knowledge about community-led development is more important now than ever before.

The IAF was created in 1969 to be agile and innovative, helping to identify, test, and reflect upon
changing opportunities for community-led development. As part of every funding action, we will define
what we hope to learn, why those lessons are important, and what evidence we will capture and use to
produce new knowledge about the development process. In this more rigorously empirical approach to
our grantmaking, every funding action will explore a hypothesis about what works, what doesn’t work,
and why.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D. candidates at
U.S. universities, support for exchanges and interaction among partner communities and organizations,
and investment in producing, sharing and using new knowledge about what works in citizen-led
development.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF is also participating in and
developing inter-agency initiatives involving the Department of State, USAID, the Department of
Housing and Urban Development, and the Environmental Protection Agency.
Lead persons/positions: The President takes a direct role in setting the knowledge agenda. The Vice
President for Programs and the Director of Evaluation lead a Washington-based team and a network of
skilled in-country consultants to identify and take action on knowledge generation opportunities. The
Director of External and Government Affairs leads a team that manages the IAF’s Ph.D. fellowship
program and interacts with other knowledge partners.
Strategy and key measures: The IAF’s core strategy for knowledge generation is to ensure that each
funding action has a knowledge generation strategy and component embedded in its design, to support
real-time reflection during project implementation on what works and why. Additional support for what

                                                   15
we are calling learning enhancement measures enables partners to reflect at mid-course about emerging
dynamics and lessons not identified at the time of project design.

Our distinctive Grassroots Development Framework uses a well-established system of concrete
indicators and frequent visits by contracted data verifiers to collect evidence throughout each project on
progress toward results. This effort, managed by the IAF’s Office of Evaluation, is supplemented by
Project Histories compiled after funding ceases and by an ambitious program of ex-post evaluations of
projects five or more years after completion to assess the long-term impact of our investment.

A complementary strategy relies on the extraordinary capacity of our partners to teach and learn from
each other — the best teacher for a farmer is a similarly situated farmer who has been successful. The
IAF invests considerable resources in meetings, exchanges, workshops, and other events that enable our
partners to share what they are learning about citizen-led development. This is a particularly cost-
effective method for rapidly spreading the word about new knowledge on Next/Best Practices. By
supporting these efforts to help good ideas go viral, the IAF multiplies its development impact far
beyond our limited capacity to intervene directly.

Another complementary strategy is the exploration of new uses of media to identify and distribute new
knowledge. The IAF’s new website (www.iaf.gov) is designed to promote the electronic distribution,
among our partners and far beyond, of new knowledge about what works best. Moreover, the IAF has
initiated new partnerships with: a) a network of more than 3,000 ethnic media outlets in the U.S. and
abroad that is dedicated to bringing the voices of the marginalized — ethnic minorities, immigrants,
young people, the elderly — into the national discourse and developing similar capacities on other
countries; and b) another media partner committed to enabling participating communities to use
radionovelas and other public-interest radio programming more effectively. The IAF is also putting low-
cost video equipment in the hands of grantee partners, to enable them to document visually what they are
accomplishing, and offering continued support for current and new partners in Latin America attempting
to apply other new media tools in service of community-led development.

The IAF’s Grassroots Development Fellowships support cutting-edge field research by Ph.D. candidates
in U.S. universities, contributing to the cadre of specialists in development and increasing exposure to
grassroots development as they become professionals and assume leadership roles throughout the region.

Finally, the IAF is engaged in an ongoing series of discussions with other thought leaders in the areas of
community-led development and the related field of asset-based community development (ABCD). In
FY2013, we will continue a series of focused interactions with the Kettering Foundation, the Coady
International Institute, and the ABCD Institute at Northwestern University. This working collaboration
focuses on rethinking the logic of how communities thrive. In FY2013, we will engage corresponding
Latin American thought-partners in this effort.

       Performance Measure 3.1: Funding actions, events, conferences, exchanges, and other efforts
       that directly enhance the opportunities for generating and disseminating new knowledge about
       development and for promoting interactive learning among IAF partners in the region and other
       development actors and thought leaders.

       Performance Measure 3.2: Publications and other media products, including ex-post
       assessments of IAF grants, that effectively distribute to strategically targeted audiences new
       knowledge about citizen-led development.
                                                    16
       Performance Measure 3.3: Funded research and knowledge- generation activities, including
       fellowships in support of doctoral research that adds to the body of knowledge related to citizen-
       led development.

       Performance Measure 3.4: Institutional knowledge-management assessment completed and
       plan for upgrading approved and ready for implementation in FY 2014.


Strategic Goal Four: Increase awareness, understanding and support for the IAF and its programs
among key audiences in order to draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to the IAF’s vision of increased
support for grassroots development. In order to attract additional resources in support of its mission and
program, the IAF must increase the degree to which its work is recognized, understood and adequately
resourced.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D. students at
U.S. universities, evaluation and research initiatives, media initiatives, publications and diverse external
engagement with partners, donors and other key constituencies.
Contributing external U.S. government programs: The IAF is participating in and developing inter-
agency initiatives involving the Department of State, USAID, the Department of Housing and Urban
Development, and the Environmental Protection Agency. Expanded partnership efforts will be ongoing
throughout the planning period.
Lead persons/positions: The Director of External and Government Affairs provides overall strategic
guidance and leadership for this goal, coordinating the involvement of the IAF President, the Vice
President of Programs, the Director of Evaluation, and their respective teams.
Strategy and key measures: The IAF will take advantage of opportunities to increase its visibility and
strengthen its position as an effective and experienced leader in grassroots development. It will pursue
partnerships with key private foundations, private-sector firms and other U.S. government agencies
interested in grassroots development. The IAF will offer its capabilities, expertise and operational
efficiencies to allow partners to invest resources efficiently and effectively through the IAF, rather than
bearing the cost of operational inefficiencies associated with unilateral investment. This increased
awareness of the IAF, its demonstrated results and its value proposition should increase the number of
partners and volume of resources available. The IAF will also continue to expand opportunities in the
Latin American business sector through RedEAmérica, the IAF-initiated network of corporate
foundations that currently represents more than 360 Latin American companies committed to investing
in grassroots development. Lastly, the IAF will continue to require grantee partners to contribute
counterpart funding toward their projects and encourage them to obtain additional support for their
efforts from local government, businesses and philanthropic institutions.

       Performance Measure 4.1: Metrics on visits to the IAF website and utilization of associated
       online information and resources.

       Performance Measure 4.2: External speaking engagements or participation of IAF staff in
       public forums.

       Performance Measure 4.3: Media coverage, press releases and grantee project recognition.

                                                     17
       Performance Measure 4.4: Total committed dollar amount of in-kind and cash resources
       contributed or mobilized by grantees.

       Performance Measure 4.5: Funds secured as a result of private-sector, inter-governmental or
       individual donation, investment or other sponsorship of IAF activities.


Strategic Goal Five: Modernize and strengthen our operations.

Problem/need/challenge addressed: Feedback from the Grantee Perception Report conducted at the
end of 2011 suggests there may be opportunities to streamline our process for approving and monitoring
grants and to reduce the administrative burden on our grantees while maintaining prudent controls and
appropriate accountability. The IAF operates a grants-management system that has served the agency for
many years but does not offer many of the integrative and analytic features available on the market
today. Other IT capabilities also require significant upgrading to make the IAF more cost-effective.
Meanwhile, as a small agency, we must continually adjust to retirements and transitions of staff and loss
of institutional knowledge.
Contributing IAF programs: Inter-agency agreements, formal training and cross-training of staff, IT
development.
Contributing external U.S. government programs: Bureau of Public Debt (BPD), Department of
Treasury (accounting, procurement and travel services); National Business Center (NBC), Department of
the Interior (personnel services); General Services Administration.
Lead persons/positions: The Chief Operating Officer provides overall leadership and operational
support, in close collaboration with the President and the Vice President for Programs.
Strategy and key measures: The IAF will conduct a thorough review of its grant approval, monitoring
and evaluation process to identify opportunities to improve effectiveness and reduce the administrative
burden on our grantee partners, while maintaining prudent controls and appropriate accountability. The
IAF will also assess its legacy grants- management system in order to determine the best course of action
to increase functionality and user-friendliness, enhancing its ability to generate more useful analytical
reports that can support evidence-based decision-making and operational transparency. We will continue
outsourcing to specialized government agencies many support services, including procurement,
accounting, travel, human resources, payroll, and equal employment opportunity. We will review these
contracts in detail for more efficient and effective ways of conducting operations to assure the best value
to the agency. The IAF will procure information technology infrastructure services that will no longer be
provided by BPD in FY 2013. Finally, we will revise our system of performance evaluations and
augment our teamwork and backstopping arrangements.

       Performance Measure 5.1: Metrics associated with elapsed time from receipt of proposal to
       definitive decision on funding.

       Performance Measure 5.2: Design completed for a re-engineered system for approving,
       monitoring and evaluating grants approval supported by a versatile grants-management system,
       ready for operation in FY 2014.

       Performance Measure 5.3: New performance evaluation system designed and ready to
       implement in FY 014.

       Performance Measure 5.4: Back-up and cross-support arrangements defined and implemented.
                                                    18
                               FY 2014 PERFORMANCE MEASURES

Mission: Promoting and investing in grassroots development to help communities thrive.

Vision: Thriving communities throughout Latin America and the Caribbean, where people direct their
own lives as individuals and citizens.

Strategic Goal One: Support the coordinated efforts of the poor to improve their material
circumstances, strengthen their organizations, and enhance the social and economic environment for
community-led development.

Problem/need/challenge addressed: Thriving communities depend on their citizens’ capacity to engage
each other in public and private association and to shape and respond to economic and social
opportunities. IAF promotes grassroots development through initiatives conceived, led and implemented
by community-based organizations of the poor and closely-linked support organizations, often
nongovernmental organizations (NGOs). Communities that have the capacity to take the lead in thinking
and working through their own development challenges form the democratic foundation that is the
region’s best hope for lasting peace, security, and economic progress.

By supporting these efforts of the organized poor, the IAF materially advances U.S. strategic interests in
the region. By being careful to base our investments on evidence about what works in grassroots
projects, we are adding to an empirically grounded body of knowledge about how to address these
challenges more effectively.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works in
community-led development — all closely linked to a sophisticated monitoring and evaluation system
that measures results and helps partners adapt strategically to changing circumstances.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF is also participating in and
developing inter-agency initiatives involving the Department of State, USAID, the Department of
Housing and Urban Development, and the Environmental Protection Agency.
Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants (enabling the IAF to perform its
grant making and evaluation functions in the most cost-effective manner).
Strategy and key measures: The IAF identifies and supports the best ideas for improving standards of
living and enhancing civic participation in democratic processes and institutions. Significantly, these
ideas come from the communities themselves, and local civil society organizations supporting these
communities. We also seek promising new ways to generate knowledge and transformative results for
our partner organizations and their communities. We continually sharpen our funding criteria to
implement this strategy and align our evaluation system with our evolving needs.

IAF helps improve the material conditions and associative capacity of communities by supporting
projects in a diverse array of thematic areas: income generation; small business development;
community-based natural resource management; water supply and sanitation; sustainable agricultural
development; improved access to domestic and foreign markets; enhanced public security and
community resilience in contexts of chronic violence; improved housing and nutrition; cultural
expression and identity; collaborative linkages between rural and urban communities; and others.
                                                    19
Before funding begins, all IAF-supported organizations identify specific indicators that are measured
periodically —usually twice a year — to provide empirical evidence of results generated. In addition, the
IAF offers its partners support for mid-course learning activities to enable partners to reflect on the
progress of their initiatives and identify and respond to challenges and opportunities not evident before
the projects began. The IAF conducts ex-post evaluations of a subset of its projects, revisiting the
participating communities five years after project completion, to assess evidence of long-term impacts.

Finally, IAF is engaging with funding partners — public and private and in the United States and abroad
— to channel greater and more sustainable flows of financial support to strong projects throughout the
region.

       Performance Measure 1.1: Funding actions in the fiscal year that enhance communities’
       capacities to design and execute development projects and materially improve the quality of life
       of beneficiaries, as evidenced by measurable indicators.

       Performance Measure 1.2: Percentage of projects ending in FY 2013 that met or exceeded
       outcome goals specified for each project.

       Performance Measure 1.3: Specific accomplishments reported by project partners active in FY
       2013, evidenced by measurable indicators, that improved the quality of beneficiaries’ lives,
       changed the social and economic contexts in which they act, or enhanced their communities’
       capacity to take the lead in their own development.


Strategic Goal Two: Promote the social inclusion and civic participation of traditionally marginalized
groups.

Problem/need/challenge addressed: Members of traditionally marginalized groups — including
women, African descendents, indigenous peoples and people with disabilities — are disproportionately
represented among the poor in Latin America and the Caribbean. They, as well as people with LGBT
identity, are also are most likely to be excluded from the civic life of their communities.
Contributing IAF programs: Grants for projects, support for exchanges and interaction among partner
communities and organizations, and investment in producing new knowledge about what works best in
promoting greater and more effective participation of traditionally marginalized groups.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF will undertake an initiative
involving the Department of State (Americas Partnership on Social Inclusion and Equality), to promote
social inclusion in six countries. This will result in an inter-agency transfer of $400,000 to the IAF.
 Lead persons/positions: The Vice President for Programs and the Director of Evaluation lead a
Washington-based team and a network of skilled in-country consultants, enabling the IAF to perform its
grant- making and evaluation functions in the most cost-effective manner.
Strategy and key measures: The IAF makes a deliberate effort to identify and work with communities
of traditionally marginalized groups and with the associations and networks that represent their interests.
Special outreach helps bring new ideas from these groups into our program pipeline. The IAF also
supports conferences, exchanges, collaborative analytical efforts and other measures to help these
communities network and learn from each other.

                                                    20
       Performance Measure 2.1: Funding actions in the fiscal year that enhance the opportunities for
       traditionally marginalized groups to become effective actors in the design and execution of
       projects that improve their quality of life and their participation in the development process.

       Performance Measure 2.2: Events, exchanges and other knowledge generation efforts to
       enhance the participation of traditionally marginalized groups in the development process and
       contribute to what is known about how these groups can most effectively take action to improve
       their quality of life.

       Performance Measure 2.3: Specific accomplishments reported by project partners active in FY
       2013, evidenced by measurable indicators, that improved the quality of life of traditionally
       marginalized groups and their opportunities to participate in the development process.


Strategic Goal Three: Make knowledge-generation and knowledge- management an integral part of our
work, informing new approaches for smarter investments by IAF and others.

Problem/need/challenge addressed: The economic, social, political and technological contexts in
which our community-based partners live and work are changing at unprecedented speed. Consequently,
the need for careful, continuous attention to the generation, distribution and application of new
knowledge about community-led development is more important now than ever before.

The IAF was created in 1969 to be agile and innovative, helping to identify, test, and reflect upon
changing opportunities for community-led development. As part of every funding action, we will define
what we hope to learn, why those lessons are important, and what evidence we will capture and use to
produce new knowledge about the development process. In this more rigorously empirical approach to
our grantmaking, every funding action will explore a hypothesis about what works, what doesn’t work
and why.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D. candidates at
U.S. universities, support for exchanges and interaction among partner communities and organizations,
and investment in producing, sharing and using new knowledge about what works in citizen-led
development.
Contributing external U.S. government programs: The IAF consults with the respective U.S.
Embassy as part of the approval process for new grants each year. The IAF is also participating in and
developing inter-agency initiatives involving the Department of State, USAID, the Department of
Housing and Urban Development, and the Environmental Protection Agency.
Lead persons/positions: The President takes a direct role in setting the knowledge agenda. The Vice
President for Programs and the Director of Evaluation lead a Washington-based team and a network of
skilled in-country consultants to identify and take action on knowledge generation opportunities. The
Director of External and Government Affairs leads a team that manages the IAF’s Ph.D. fellowship
program and interacts with other knowledge partners.
Strategy and key measures: The IAF’s core strategy for knowledge- generation is to ensure that each
funding action has a knowledge- generation strategy and component embedded in its design, to support
real-time reflection during project implementation on what works and why. Additional support for what
we are calling learning enhancement measures enables partners to reflect at mid-course about emerging
dynamics and lessons not identified at the time of project design.


                                                  21
Our distinctive Grassroots Development Framework uses a well-established system of concrete
indicators and frequent visits by contracted data verifiers to collect evidence throughout each project on
progress toward results. This effort, managed by the IAF’s Office of Evaluation, is supplemented by
Project Histories compiled after funding ceases and by an ambitious program of ex-post evaluations of
projects five or more years after completion to assess the long-term impact of our investment.

A complementary strategy relies on the extraordinary capacity of our partners to teach and learn from
each other — the best teacher for a farmer is a similarly-situated farmer who has been successful. The
IAF invests considerable resources in meetings, exchanges, workshops and other events that enable our
partners to share what they are learning about citizen-led development. This is a particularly cost-
effective method for rapidly spreading the word about new knowledge on Next/Best Practices. By
supporting these efforts to help good ideas go viral, the IAF multiplies its development impact far
beyond our limited capacity to intervene directly.

Another complementary strategy is the exploration of new uses of media to identify and distribute new
knowledge. The IAF’s new website (www.iaf.gov) is designed to promote the electronic distribution,
among our partners and far beyond, of new knowledge about what works best. Moreover, the IAF has
initiated new partnerships with: a) a network of more than 3,000 ethnic media outlets in the US and
abroad that is dedicated to bringing the voices of the marginalized ethnic minorities, immigrants, young
people, the elderly — into the national discourse, and developing similar capacities on other countries;
and b) another media partner committed to enabling participating communities to use radionovelas and
other public-interest radio programming more effectively. The IAF is also putting low-cost video
equipment in the hands of grantee partners, to enable them to document visually what they are
accomplishing and is offering continued support for current and new partners in Latin America
attempting to apply other new media tools in service of community-led development.

The IAF’s Grassroots Development Fellowships support cutting-edge field research by Ph.D. candidates
in U.S. universities, contributing to the cadre of specialists in development and increasing exposure to
grassroots development as they become professionals and assume leadership roles throughout the region.

Finally, the IAF is engaged in an ongoing series of discussions with other thought-leaders in the areas of
community-led development and the related field of asset-based community development (ABCD). In
FY 2014, we will continue a series of focused interactions with the Kettering Foundation, the Coady
International Institute, and the ABCD Institute at Northwestern University. This working collaboration
focuses on rethinking the logic of how communities thrive. In FY 2014, we will expand engagement
with corresponding Latin American thought-partners in this effort.

       Performance Measure 3.1: Funding actions, events, conferences, exchanges and other efforts
       that directly enhance the opportunities for generating and disseminating new knowledge about
       development and for promoting interactive learning among IAF partners in the region and other
       development actors and thought leaders.

       Performance Measure 3.2: Publications and other media products, including ex-post
       assessments of IAF grants, that effectively distribute to strategically targeted audiences new
       knowledge about citizen-led development.




                                                    22
       Performance Measure 3.3: Funded research and knowledge- generation activities, including
       fellowships in support of doctoral research that adds to the body of knowledge on citizen-led
       development.

       Performance Measure 3.4: Institutional knowledge-management plan implemented.


Strategic Goal Four: Increase awareness, understanding and support for the IAF and its programs
among key audiences in order to draw more resources into grassroots development.

Problem/need/challenge addressed: A broader resource base is crucial to the IAF’s vision of increased
support for grassroots development. In order to attract additional resources in support of its mission and
program, the IAF must increase the degree to which its work is recognized, understood and adequately
resourced.
Contributing IAF programs: Grants for projects, IAF fellowships for field work by Ph.D. students at
U.S. universities, evaluation and research initiatives, media initiatives, publications and diverse external
engagement with partners, donors and other key constituencies.
Contributing external U.S. government programs: The IAF is participating in and developing inter-
agency initiatives involving the Department of State, USAID, the Department of Housing and Urban
Development, and the Environmental Protection Agency. Expanded partnership efforts will be ongoing
throughout the planning period.
Lead persons/positions: The Director of External and Government Affairs provides overall strategic
guidance and leadership for this goal, coordinating the involvement of the IAF President, the Vice
President of Programs, the Director of Evaluation and their respective teams.
Strategy and key measures: The IAF will take advantage of opportunities to increase its visibility and
strengthen its position as an effective and experienced leader in grassroots development. It will pursue
partnerships with key private foundations, private-sector firms and other U.S. government agencies
interested in grassroots development. The IAF will offer its capabilities, expertise and operational
efficiencies to allow partners to invest resources efficiently and effectively through the IAF, rather than
bearing the cost of operational inefficiencies associated with unilateral investment. This increased
awareness of the IAF, its demonstrated results, and its value proposition should increase the number of
partners and volume of resources available. The IAF will also continue to expand opportunities in the
Latin American business sector through RedEAmérica, the IAF-initiated network of corporate
foundations that currently represents more than 360 Latin American companies committed to investing
in grassroots development. Lastly, the IAF will continue to require grantee partners to contribute
counterpart funding toward their projects and encourage them to obtain additional support for their
efforts from local government, businesses and philanthropic institutions.

       Performance Measure 4.1: Metrics on visits to the IAF website and utilization of associated
       online information and resources.

       Performance Measure 4.2: External speaking engagements or participation of IAF staff in
       public forums.

       Performance Measure 4.3: Media coverage, press releases and grantee project recognition.

       Performance Measure 4.4: Total committed dollar amount of in-kind and cash resources
       contributed or mobilized by grantees.
                                                     23
       Performance Measure 4.5: Funds secured as a result of private sector, inter-governmental or
       individual donation, investment, or other sponsorship of IAF activities.

Strategic Goal Five: Modernize and strengthen our operations.

Problem/need/challenge addressed: Feedback from the Grantee Perception Report conducted at the
end of 2011 suggests there may be opportunities to streamline our process for approving and monitoring
grants and to reduce the administrative burden on our grantees while maintaining prudent controls and
appropriate accountability. The IAF operates a grants-management system that has served the agency for
many years but does not offer many of the integrative and analytic features available on the market
today. Other IT capabilities also require significant upgrading to make the IAF more cost-effective.
Meanwhile, as a small agency, we must continuously adjust to retirements and transitions of staff and
loss of institutional knowledge.
Contributing IAF programs: Inter-agency agreements, formal training and cross-training of staff, IT
development.
Contributing external U.S. government programs: Bureau of Public Debt (BPD), Department of
Treasury (accounting, procurement and travel services); National Business Center (NBC), Department of
the Interior (personnel services); General Services Administration.
Lead persons/positions: The Chief Operating Officer provides overall leadership and operational
support, in close collaboration with the President and the Vice President for Programs.
Strategy and key measures: The IAF will conduct a thorough review of its process for approving,
monitoring and evaluating grants to identify opportunities to improve effectiveness and reduce the
administrative burden on our grantee partners, while maintaining prudent controls and appropriate
accountability. The IAF will also assess its legacy grants- management system in order to determine the
best course of action to increase functionality and user-friendliness, enhancing the facility to generate
more useful analytical reports that can support evidence-based decision-making and operational
transparency. We will continue outsourcing to specialized government agencies many support services,
including procurement, accounting, travel, human resources, payroll, and equal employment opportunity.
We will review these contracts in detail for more efficient and effective ways of conducting operations to
assure the best value to the agency. Finally, we will revise our system of performance evaluations and
augment our teamwork and backstopping arrangements.

       Performance Measure 5.1: Metrics associated with time elapsed from receipt of proposal to
       definitive decision on funding.

       Performance Measure 5.2: Re-engineered system of grants approval, monitoring and evaluation
       supported by versatile grants- management system in place.

       Performance Measure 5.3: New performance-evaluation system in place.

       Performance Measure 5.4: Improved results on Grantee Perception Survey compared with
       2011.




                                                   24
                   Analysis of Financial Statements and Stewardship Information

Systems, Controls, and Legal Compliance

Net Cost of Core Functions

The activity reported in the Statement of Net Cost reflects the resources used by the IAF during FY2012.
Program costs of $28,078,064 reflected a decrease of $648,156 in FY2012 from the FY2011 amount of
$28,726,220.

Payroll and benefits in FY2012 increased to $5,458,506 from $5,379,146 in FY2011 and program-
related (not including grants/grant audits) activities in FY2012 increased to $4,606,295 from $3,803,395
in FY2011.



                              FY12 NET COST OF CORE FUNCTIONS

                        Payroll and
                         Benefits                             Operating
                                    Rental Payments
                           17%                                Services
                                           1%
                                                                11%



             Other Program
               Activities
                 15%

                                                           Grants/Grant
                                                              Audits
                                                               56%



Fund Balance with U.S. Treasury

Total resources available from the U.S. Treasury and other financing sources for FY2012 and FY2011
were $34,748,673 and $37,258,513 respectively. The difference of $2,509,840 is due to a reduction of
SPTF collections and increases in disbursements and grant advances.

Limitations on Financial Statements

The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have
been prepared from the books and records of the entity in accordance with GAAP for Federal entities
and the formats prescribed by OMB, the statements are in addition to the financial reports used to
monitor and control budgetary resources, which are prepared from the same books and records. The
statements should be read with the realization that they are a component of the U.S. Government, a
sovereign entity.
                                                     25
                 Inter-American Foundation
                 An Independent Agency of the U.S. Government




                                                                    October 24, 2012

Letter from the Chief Financial Officer

The Inter-American Foundation (IAF) is a resourceful, agile, cost-effective agency efficient in its
operations, innovative and effective in its grassroots development programs. The IAF learns from its
experience, and uses the lessons learned to improve its own grant making decisions and to advance the
knowledge and success of development practitioners, donors, and policy makers.

The IAF has significantly streamlined operations, and most administrative and technical functions
continued to be outsourced in 2012 through longstanding inter-agency agreements with the Bureau of the
Public Debt (BPD) of the U.S. Department of the Treasury and the National Business Center (NBC) of
the Department of the Interior. Outsourcing has streamlined operations, lowered overhead and brought a
depth of expertise to these functions that the IAF could not otherwise afford. BPD continued to provide
services related to procurement, accounting, budget, travel and information technology (IT); NBC
continued to provide payroll and human resource services that included timekeeping, processing and
reporting personnel actions, and to manage online applications such as the Federal Personnel and Payroll
System (FPPS) and Employee Express. Since FY 2009, the IAF has participated with NBC in E-Gov
initiatives to improve personnel operations, and since FY 2010, employees have accessed their files
through the eOPF project that converted all records in (OPF) to electronic format.

The IAF is supporting the Financial Management Line of Business (FMLOB) Initiative by using BPD’s
Oracle Federal Financials System and related accounting and procurement services and BPD has been
reporting FMLOB metrics for IAF for the past three years. The Oracle platform provides real-time, user-
friendly financial reports. The IAF continues to receive unqualified audits of its financial statements,
internal controls over financial reporting, and its compliance with relevant federal laws and regulations.

In fiscal 2009, the IAF transitioned to General Services Administration’s Federal Technology Service
(GSA/FTS) Networx and WITS3 new government-wide telecommunications contracts. This resulted in a
savings of 35 percent in expenditures for domestic and international telephone services in 2012. After
transitioning to a new VOIP system in April 2012, we will not receive the cost savings, but consolidating
phones with IT will allow central management of phone services through server access and integration
of workstation phones and computers.

The IAF, in conjunction with BPD, analyzed and evaluated its systems of management control and
financial management under the Federal Managers’ Financial Integrity Act (FMFIA) for the year ended
September 30, 2012, according to the procedures and standards prescribed by the Office of Management
and Budget (OMB) and the Government Accountability Office. Based on this evaluation we found that
                                                            26
our systems of management controls provide reasonable assurance that: programs are free from waste,
fraud and mismanagement; laws and regulations are followed; our continuity of operations planning in
critical areas is sufficient to reduce risk to reasonable levels; and our performance information is reliable
as defined in OMB Circular A-11, Section 232.10. We further found that the IAF’s financial
management systems, in conjunction with those of BPD, meet the Federal government’s management
system objectives of usefulness, timeliness, reliability and completeness, comparability and consistency,
and efficiency and economy. As result, we conclude that there is reasonable assurance that the Inter-
American Foundation complies with Sections 2 and 4 of the FMFIA.

We have no open or new material weakness or nonconformance to report; we have not discovered any
material weakness or nonconformance during fiscal year 2012; and we do not have any open reportable
conditions or second tier issues. In addition, we have found that, for the year ended September 30, 2012,
the Inter-American Foundation’s administrative and fiscal accounting systems substantially comply with
the requirements of the Federal Financial Management Improvement Act (FFMIA).

The financial statements and performance results data are complete, reliable and in accordance with
OMB requirements and in conformity with generally accepted accounting principles. The IAF has
appropriate management controls in place to ensure that all internal controls are operating in accordance
with applicable policies and procedures and are effective in meeting the requirements imposed by the
FMFIA and FFMIA.

Signed:

/s/
Juan A. Price
Chief Operating Officer and
Chief Financial Officer




                                                     27
         INDEPENDENT AUDITOR'S REPORT ON THE FINANCIAL STATEMENTS


Inter-American Foundation
Washington, D.C.

We have audited the accompanying balance sheet of the Inter-American Foundation (IAF) as of
September 30, 2012 and 2011 and the related statements of net cost, changes in net position, and
budgetary resources, for the years then ended (collectively referred to as the financial statements). These
financial statements are the responsibility of IAF’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in U.S. Government Auditing Standards,
issued by the Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards
and OMB Bulletin No. 07-04, as amended, require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the IAF as of September 30, 2012 and 2011 and its net costs, changes in net position,
and budgetary resources for the years then ended in conformity with accounting principles generally
accepted in the United States of America.

In accordance with U.S. Government Auditing Standards and OMB Bulletin No. 07-04, as amended, we
have also issued our reports dated November 1, 2012 on our consideration of the IAF internal control over
financial reporting and its compliance with certain provisions of laws and regulations. Those reports are
an integral part of an audit performed in accordance with U.S. Government Auditing Standards and
should be read in conjunction with this report in considering the results of our audit.

Accounting principles generally accepted in the United States of America require that the Management
Discussion and Analysis (MD&A) be presented to supplement the basic financial statements. Such
information, although not a part of the basic financial statements, is required by OMB Circular A-136,
Financial Reporting Requirements, as revised, that considers it to be an essential part of financial
reporting for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which consisted
of inquiries of management about the methods of preparing the information and comparing the
information for consistency with management's responses to our inquiries, the basic financial statements,
and other knowledge we obtained during our audit of the basic financial statements. We do not express an
opinion or provide any assurance on the information because the limited procedures do not provide us
with sufficient evidence to express an opinion or provide any assurance.



                          1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
         PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com

                                                    28
         This report is intended solely for the information and use of the management of the IAF, OMB and
         Congress, and is not intended to be and should not be used by anyone other than these specified parties.


         Largo, Maryland
         November 1, 2012




IE:::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::::= BROWN   &   COMPANY CPAS, PLLC   ::::::::========~


                                                                                        29
                           INDEPENDENT AUDITOR’S REPORT
                   ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inter-American Foundation
Washington, D.C.

We have audited the financial statements of the Inter-American Foundation (IAF) as of and for the year
ended September 30, 2012 and have issued our report thereon dated November 1, 2012. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in U.S. Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended.

In planning and performing our audit, we considered the IAF’s internal control over financial reporting by
obtaining an understanding of the IAF’s internal control, determined whether internal controls had been
placed in operation, assessed control risk, and performed tests of controls in order to determine our
auditing procedures for the purpose of expressing our opinion on the financial statements. We limited our
internal control testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04, as amended. The objective of our audit was not to provide an opinion on internal control and
therefore, we do not express an opinion on internal control.

Our consideration of the internal control over financial reporting would not necessarily disclose all
matters in the internal control over financial reporting that might be a material weakness or significant
deficiency. Under standards issued by the American Institute of Certified Public Accountants and OMB
Bulletin No. 07-04, as amended, a material weakness is a deficiency, or combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected on a timely basis. A significant
deficiency is a deficiency in internal control, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged with
governance. Because of inherent limitations in internal controls, misstatements, losses, or non-
compliance may nevertheless occur and not be detected. However, we noted no matters involving the
internal control and its operation that we considered to be a material weakness as defined above.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


Largo, Maryland
November 1, 2012




                           1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
          PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com

                                                     30
                           INDEPENDENT AUDITOR'S REPORT ON
                        COMPLIANCE WITH LAWS AND REGULATIONS


Inter-American Foundation
Washington, D.C.

We have audited the financial statements of the Inter-American Foundation (IAF) as of and for the year
ended September 30, 2012 and have issued our report thereon dated November 1, 2012. We conducted
our audit in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in U.S. Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No.
07-04, Audit Requirements for Federal Financial Statements, as amended.

The management of the IAF is responsible for complying with laws and regulations applicable to the IAF.
As part of obtaining reasonable assurance about whether the IAF’s financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain other laws and regulations specified in OMB Bulletin No. 07-04,
as amended. We limited our tests of compliance to these provisions and we did not test compliance with
all laws and regulations applicable to the IAF.

The results of our tests of compliance with laws and regulations disclosed no material noncompliance
with laws and regulations discussed in the preceding paragraph that are required to be reported under U.S.
Government Auditing Standards or OMB Bulletin No. 07-04, as amended.

Providing an opinion on compliance with certain provisions of laws and regulations was not an objective
of our audit, and, accordingly, we do not express such an opinion. However, we noted no noncompliance
with laws and regulations, which could have a direct and material effect on the determination of financial
statement amounts.

This report is intended solely for the information and use of the management of the IAF, OMB and
Congress, and is not intended to be and should not be used by anyone other than these specified parties.


Largo, Maryland
November 1, 2012




                          1101 MERCANTILE LANE, SUITE 122 ● LARGO, MD 20774
         PHONE: (240) 770-4900 ● FAX: (301) 773-2090 ● mail@brownco-cpas.com ● www.brownco-cpas.com

                                                    31
                                      INTER-AMERICAN FOUNDATION
                                             BALANCE SHEET
                                     AS OF SEPTEMBER 30, 2012 AND 2011
                                                (In Dollars)

                                                                                 2012              2011
Assets:
 Intragovernmental
    Fund Balance With Treasury (Note 2)                                      $   34,748,673    $   37,258,513
    Other (Note 3)                                                                   45,568            15,758
 Total Intragovernmental                                                     $   34,794,241    $   37,274,271
 Other (Note 3)                                                                   2,280,568         1,617,605
Total Assets                                                                 $   37,074,809    $   38,891,876

Liabilities:
  Intragovernmental
    Accounts Payable                                                         $      178,919    $      261,762
    Other (Note 6)                                                                  734,984           819,477
  Total Intragovernmental                                                    $      913,903    $    1,081,239
  Accounts Payable                                                           $      360,374    $      698,438
  Other (Note 6)                                                                    655,395           642,021
Total Liabilities                                                            $    1,929,672    $    2,421,698

Net Position:
 Unexpended Appropriations - Other Funds                                     $   21,485,654    $   22,258,454
 Cumulative Results of Operations - Earmarked Funds (Note 14)                    14,036,102        14,616,774
 Cumulative Results of Operations - Other Funds                                    (376,619)         (405,050)
 Total Net Position                                                          $   35,145,137    $   36,470,178
Total Liabilities and Net Position                                           $   37,074,809    $   38,891,876




The accompanying notes are an integral part of these financial statements.

                                                        32
                                  INTER-AMERICAN FOUNDATION
                                     STATEMENT OF NET COST
                      FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                            (In Dollars)

                                                                                 2012              2011
Program Costs:
 Foreign Grant Program: (Note 9)
    Gross Costs                                                              $   28,155,799    $   28,826,034
    Less: Earned Revenue                                                            (77,735)          (99,814)
Net Cost of Operations                                                       $   28,078,064    $   28,726,220




The accompanying notes are an integral part of these financial statements.

                                                       33
                                                                       INTER-AMERICAN FOUNDATION
                                                                  STATEMENT OF CHANGES IN NET POSITION
                                                           FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                                                                 (In Dollars)

                                                                 2012                2012                2012                  2011                2011               2011
                                                            Earmarked Funds    All Other Funds     Consolidated Total     Earmarked Funds    All Other Funds    Consolidated Total

Cumulative Results of Operations:
Beginning Balances                                           $   14,616,774    $      (405,050)        $   14,211,724     $    13,204,163    $      (388,880)   $     12,815,283

Budgetary Financing Sources:
  Appropriations Used                                                     -         23,020,799             23,020,799                   -         22,320,354          22,320,354
  Donations and Forfeitures of Cash and Cash Equivalents                300                                       300               5,450                  -               5,450
  Other                                                           4,207,978                                 4,207,978           7,499,449                  -           7,499,449

Other Financing Sources (Non-Exchange):
  Imputed Financing Sources (Note 10)                                     -            296,746                 296,746                  -            297,408              297,408
Total Financing Sources                                      $    4,208,278    $    23,317,545         $    27,525,823    $     7,504,899    $    22,617,762    $      30,122,661
Net Cost of Operations                                           (4,788,950)       (23,289,114)            (28,078,064)        (6,092,288)       (22,633,932)         (28,726,220)
Net Change                                                   $     (580,672)   $        28,431         $      (552,241)   $     1,412,611    $       (16,170)   $       1,396,441
Cumulative Results of Operations                             $   14,036,102    $      (376,619)        $    13,659,483    $    14,616,774    $      (405,050)   $      14,211,724

Unexpended Appropriations:
Beginning Balances                                           $            -    $    22,258,454         $   22,258,454     $             -    $    22,921,207    $     22,921,207

Budgetary Financing Sources:
  Appropriations Received                                                 -         22,500,000              22,500,000                  -         22,499,000           22,499,000
  Other Adjustments                                                       -           (252,001)               (252,001)                 -           (841,399)            (841,399)
  Appropriations Used                                                     -        (23,020,799)            (23,020,799)                 -        (22,320,354)         (22,320,354)
Total Budgetary Financing Sources                            $            -    $      (772,800)        $      (772,800)   $             -    $      (662,753)   $        (662,753)
Total Unexpended Appropriations                              $            -    $    21,485,654         $    21,485,654    $             -    $    22,258,454    $      22,258,454
Net Position                                                 $   14,036,102    $    21,109,035         $    35,145,137    $    14,616,774    $    21,853,404    $      36,470,178




    The accompanying notes are an integral part of these financial statements.

                                                                                                  34
                                     INTER-AMERICAN FOUNDATION
                                 STATEMENT OF BUDGETARY RESOURCES
                         FOR THE FISCAL YEARS ENDED SEPTEMBER 30, 2012 AND 2011
                                               (In Dollars)

                                                                                 2012               2011
Budgetary Resources:

Unobligated Balance Brought Forward, October 1                               $    8,783,013     $    6,149,512
Recoveries of Prior Year Unpaid Obligations                                       1,257,251          1,347,883
Other changes in unobligated balance                                               (252,001)          (796,401)
Unobligated balance from prior year budget authority, net                         9,788,263          6,700,994
Appropriations                                                                   22,500,000         22,454,002
Spending authority from offsetting collections                                    4,208,279          7,504,899
Total Budgetary Resources                                                    $   36,496,542     $   36,659,895

Status of Budgetary Resources:
Obligations Incurred (Note 15)                                               $   31,115,761     $   27,876,882
Unobligated balance, end of year:
      Apportioned                                                                   175,586            276,480
      Unapportioned                                                               5,205,195          8,506,533
Total Budgetary Resources                                                    $   36,496,542     $   36,659,895

Change in Obligated Balance:
Unpaid Obligations, Brought Forward, October 1                               $    28,475,500    $    29,305,026
Adjustment to obligated balance, start of year                                   (29,367,892)       (28,475,500)
Obligated balance, start of year, as adjusted                                       (892,392)           829,526
Obligations Incurred                                                              31,115,761         27,876,882
Outlays (gross)                                                                  (28,966,118)       (27,358,525)
Recoveries of Prior Year Unpaid                                                   (1,257,251)        (1,347,883)
Obligated balance, end of year                                               $    29,367,892    $    28,475,500

Budget Authority and Outlays, Net:
Budget authority, gross                                                      $   26,708,279     $   29,958,901
Actual offsetting collections                                                    (4,208,279)        (7,504,899)
Budget Authority, net                                                        $   22,500,000     $   22,454,002

Outlays, gross                                                               $   28,966,118     $   27,358,525
Actual offsetting collections                                                    (4,208,279)        (7,504,899)
Agency outlays, net                                                          $   24,757,839     $   19,853,626




The accompanying notes are an integral part of these financial statements.

                                                            35
                   INTER-AMERICAN FOUNDATION
                NOTES TO THE FINANCIAL STATEMENTS
NOTE 1. SUMMARY OF SIGNIFICANT                         Statement of Budgetary Resources presents the
ACCOUNTING POLICIES                                    sources, status, and uses of the agency’s
                                                       resources and follows the rules for the Budget
A. Reporting Entity                                    of the United States Government.

The Inter-American Foundation (IAF), a U.S.            The statements are a requirement of the Chief
government corporation, was established                Financial Officers Act of 1990, the
pursuant to part IV of the Foreign Assistance          Government Management Reform Act of 1994
Act of 1969 (22 U.S.C. 290f (a)). The IAF              and the Accountability of Tax Dollars Act of
provides grants to support the initiatives of          2002. They have been prepared from, and are
non-governmental     and    community-based            fully supported by, the books and records of
organizations in Latin America and the                 the IAF in accordance with the hierarchy of
Caribbean to implement their economic                  accounting principles generally accepted in the
development and poverty reduction projects.            United States of America, standards issued by
                                                       the Federal Accounting Standards Advisory
The management of the IAF is vested in a               Board (FASAB), Office of Management and
nine-person Board of Directors appointed by            Budget (OMB) Circular A-136, Financial
the President of the United States. Six Board          Reporting Requirements, as amended, and the
members are drawn from the private sector and          IAF accounting policies which are summarized
three from officers or employees of agencies of        in this note. These statements, with the
the U.S. Government concerned with Inter-              exception of the Statement of Budgetary
American activities. The Board appoints the            Resources, are different from financial
IAF’s president who acts as the chief executive        management reports, which are also prepared
officer.                                               pursuant to OMB directives that are used to
                                                       monitor and control the IAF's use of budgetary
Congress enacts appropriations to permit the           resources.    The financial statements and
IAF to incur obligations for authorized                associated notes are presented on a
purposes. In fiscal years 2012 and 2011, the           comparative basis. Unless specified otherwise,
IAF was accountable for the Social Progress            all amounts are presented in dollars.
Trust Fund (SPTF), Gift Fund, and General
Fund appropriations. The IAF recognizes                C. Basis of Accounting
budgetary resources as assets when cash (funds
held by the U.S. Treasury) is made available           Transactions are recorded on both an accrual
through the Department of Treasury General             accounting basis and a budgetary basis. Under
Fund warrants and transfers from the Inter-            the accrual method, revenues are recognized
American Development Bank (IDB).                       when earned, and expenses are recognized
                                                       when a liability is incurred, without regard to
B. Basis of Presentation                               receipt or payment of cash.          Budgetary
                                                       accounting facilitates compliance with legal
The financial statements have been prepared to         requirements on the use of federal funds.
report the financial position and results of
operations of the IAF. The Balance Sheet               D. Revenues & Other Financing Sources
presents the financial position of the agency.
The Statement of Net Cost presents the                 The IAF’s grant       program is funded by
agency’s operating results; the Statement of           appropriation from   the budget of the United
Changes in Net Position displays the changes           States, agreement    with the Inter-American
in the agency’s equity accounts.          The          Development Bank     (IDB) covering the SPTF,
                                                  36
and donations from the private sector. No-year          post-retirement benefit expenses for current
appropriations     remain    available     until        employees paid on its behalf by the Office of
expended, while multi-year appropriations are           Personnel Management (OPM).
available for the period prescribed by the
applicable statute. Appropriations are used,            E. Fund Balance with Treasury
within statutory limits, for programmatic,
operating and capital expenditures for essential        Fund Balance with Treasury is the aggregate
personal property.        Appropriations are            amount of the IAF’s appropriated funds and
recognized as a financing source when                   SPTF collections that are available to pay
expended.      Appropriations expended for              agency liabilities and finance authorized
capitalized property and equipment are                  purchases, commitments and SPTF grants.
recognized as expense when an asset is                  The IAF does not maintain bank accounts of
consumed in operations.                                 its own, has no disbursing authority, and does
                                                        not maintain cash held outside of Treasury.
The IAF has an agreement with the IDB to                Foreign currency payments are made either by
receive funds from the SPTF to finance part of          Treasury or the Department of State and are
the IAF’s grant program. The IDB is an                  reported by the IAF in the U.S. dollar
international financial organization established        equivalents.
to promote the economic and social
development of member countries. The United             F. Accounts Receivable
States’ participation in IDB is authorized and
governed by the Inter-American Development              Accounts receivable consists of amounts owed
Bank Act (22 U.S.C. 283). Within IDB, the               to the IAF by other Federal agencies and the
United States established the SPTF in 1961              general public. Amounts due from Federal
and provided appropriations to SPTF through             agencies are considered fully collectible.
1964. IDB was designated as the administrator           Accounts receivable from the public include
for the SPTF and committed the original SPTF            reimbursements from employees.              An
appropriations to loans. Repayments of these            allowance       for  uncollectible     accounts
loans are recycled by the IDB in accordance             receivable from the public is established when,
with the original agreement and subsequent              based upon a review of outstanding accounts
provision for additional loans, technical               and the failure of all collection efforts,
cooperation programs, and financing of the              management determines that collection is
Inter-American Foundation program. Congress             unlikely to occur considering the debtor’s
enacts annual, multi-year, and no-year                  ability to pay.
appropriations to be used, within statutory
limits, for operating, capital and grant                G. Property, Equipment, and Software
expenditures. Additional amounts are obtained
from service fees and reimbursements from               Property, equipment and software represent
other government entities and the public.               furniture, fixtures, equipment, and information
                                                        technology hardware and software which are
Pursuant to a 1973 amendment to the Foreign             recorded at original acquisition cost and are
Assistance Act of 1961, IDB provides funds to           depreciated or amortized using the straight-line
finance social development projects. These              method over their estimated useful lives.
funds are made available in U.S. dollars upon           Major alterations and renovations are
request by the IAF, subject to denomination             capitalized, while maintenance and repair costs
availability and exchange controls. In 2002,            are expensed as incurred.           The IAF's
the SPTF agreement was amended to make                  capitalization threshold is $50,000 for
available all remaining funds until exhausted.          individual purchases and $500,000 for bulk
The IAF recognizes as an imputed financing              purchases. Property, equipment, and software
source the amount of accrued pension and


                                                   37
acquisitions that do not meet the capitalization        benefits. Accounts payable represent amounts
criteria are expensed upon receipt. Applicable          owed to another entity for goods ordered and
standard governmental guidelines regulate the           received and for services rendered except for
disposal and convertibility of agency property,         employees. Accrued payroll and benefits
equipment, and software. The useful life                represent payroll costs earned by employees
classifications for capitalized assets are as           during the fiscal year which are not paid until
follows:                                                the next fiscal year.

Description                 Useful Life (years)         Liabilities not covered by budgetary resources
                                                        are liabilities that are not funded by any
Office Furniture                     10
                                                        current appropriation or other funding source.
ADP Equipment                         3                 These liabilities consist of accrued annual
Office Equipment                     10                 leave.
IT Software                           3
                                                        J. Annual, Sick, and Other Leave
H. Advances and Prepaid Charges
                                                        Annual leave is accrued as it is earned, and the
Advance payments are generally prohibited by            accrual is reduced as leave is taken. The
law. There are some exceptions, such as                 balance in the accrued leave account is
reimbursable agreements, subscriptions and              adjusted to reflect current pay rates. Liabilities
payments to contractors and employees.                  associated with other types of vested leave,
Payments made in advance of the receipt of              including compensatory, restored leave, and
goods and services are recorded as advances or          sick leave in certain circumstances, are accrued
prepaid charges at the time of prepayment and           at year-end, based on latest pay rates and
recognized as expenses when the related goods           unused hours of leave. Funding will be
and services are received.                              obtained from future financing sources to the
                                                        extent that current or prior year appropriations
I. Liabilities                                          are not available to fund annual and other
                                                        types of vested leave earned but not taken.
Liabilities represent the amount of funds               Nonvested leave is expensed when used. Any
likely      to    be      paid      by      the         liability for sick leave that is accrued but not
IAF as a result of transactions or events that          taken by a Civil Service Retirement System
have already occurred. The IAF reports its              (CSRS)-covered employee is transferred to
liabilities    under      two       categories,         OPM upon the retirement of that individual.
Intragovernmental and With the Public.                  Credit is given for sick leave balances in the
Intragovernmental liabilities represent funds           computation of annuities upon the retirement
owed to another government agency.                      of Federal Employees Retirement System
Liabilities With the Public represents funds            (FERS)-covered employees effective at 50%
owed to any entity or person that is not a              beginning FY2010 and 100% in 2014.
federal agency, including private sector firms
and federal employees.        Each of these             K. Retirement Plans
categories may include liabilities that are
covered by budgetary resources and liabilities          The IAF employees participate in either the
not covered by budgetary resources.                     CSRS or the FERS. The employees who
                                                        participate in CSRS are beneficiaries of the
Liabilities covered by budgetary resources are          IAF matching contribution, equal to seven
liabilities funded by a current appropriation or        percent of pay, distributed to their annuity
other funding source. These consist of                  account in the Civil Service Retirement and
accounts payable and accrued payroll and                Disability Fund.



                                                   38
Prior to December 31, 1983, all employees                  L. Grant Disbursements and
were covered under the CSRS program. From                  Administrative Expenses
January 1, 1984 through December 31, 1986,
employees had the option of remaining under                Grant disbursements include payments in
CSRS or joining FERS and Social Security.                  advance of performance under contractual
Employees hired as of January 1, 1987 are                  obligations.    Evidence of performance is
automatically covered by the FERS program.                 determined by review of periodic expenditure
Both CSRS and FERS employees may                           reports. All of the IAF expenditures for grants
participate in the federal Thrift Savings Plan             over $35,000 are independently verified using
(TSP). FERS employees receive an automatic                 the IAF’s audit guidelines.        The IAF’s
agency contribution equal to one percent of                administrative expenses are funded solely by
pay and the IAF matches any employee                       appropriated funds.
contribution up to an additional four percent of
pay. For FERS participants, The IAF also                   For three years prior to FY10, the IAF did not
contributes the employer’s matching share of               estimate grant advances. In FY09, the IAF
Social Security.                                           began estimating grant advances by
                                                           multiplying the grants disbursed during the
FERS employees and certain CSRS                            quarter by 50%. This estimate will be done
reinstatement employees are eligible to                    each quarter to determine the amount of grant
participate in the Social Security program after           disbursements to be accounted for as grant
retirement. In these instances, the IAF remits             advances in the Balance Sheet.
the employer’s share of the required
contribution.                                              M. Use of Estimates

The IAF recognizes the imputed cost of                     The preparation of the accompanying financial
pension and other retirement benefits during               statements in accordance with generally
the employees’ active years of service. OPM                accepted accounting principles requires
actuaries determine pension cost factors by                management to make certain estimates and
calculating the value of pension benefits                  assumptions that affect the reported amounts
expected to be paid in the future and                      of assets, liabilities, revenues, and expenses.
communicate these factors to the IAF for                   Actual results could differ from those
current period expense reporting. OPM also                 estimates.
provides information regarding the full cost of
health and life insurance benefits. The IAF                N. Imputed Costs/Financing Sources
recognized the offsetting revenue as imputed
financing sources to the extent these expenses             Federal Government entities often receive
will be paid by OPM.                                       goods and services from other Federal
                                                           Government entities without reimbursing the
The IAF does not report on its financial                   providing entity for all the related costs. In
statements information pertaining to the                   addition, Federal Government entities also
retirement plans covering its employees.                   incur costs that are paid in total or in part by
Reporting amounts such as plan assets,                     other entities. An imputed financing source is
accumulated plan benefits, and related                     recognized by the receiving entity for costs
unfunded liabilities, if any, is the responsibility        that are paid by other entities. The IAF
of the OPM, as the administrator.                          recognized imputed costs and financing
                                                           sources in fiscal years 2012 and 2011 to the
                                                           exent directed by accounting standards.




                                                      39
O. Reclassification

Certain fiscal year 2011 balances have been reclassified, retitled, or combined with other
financial statement line items for consistency with the current year presentation.


NOTE 2. FUND BALANCE WITH TREASURY

Fund balance with Treasury account balances as of September 30, 2012 and 2011 were as
follows:

                                                             2012                     2011
Fund Balances:
Trust Funds                                              $         1,355          $         1,055
Social Progress Trust Funds (SPTF)                            13,309,393               14,122,705
Appropriated Funds                                            21,437,925               23,134,753
Total                                                    $    34,748,673          $    37,258,513

Status of Fund Balance with Treasury:
Unobligated Balance
   Available                                             $       175,586          $       276,480
   Unavailable                                                 5,205,195                8,506,533
Obligated Balance Not Yet Disbursed                           29,367,892               28,475,500
Total                                                    $    34,748,673          $    37,258,513

No discrepancies exist between the Fund Balance reflected on the Balance Sheet and the balances
in the Treasury accounts.

The available unobligated fund balances represent the current-period amount available for
obligation or commitment. At the start of the next fiscal year, this amount will become part of the
unavailable balance as described in the following paragraph.

The unavailable unobligated fund balances represent the amount of appropriations for which the
period of availability for obligation has expired. These balances are available for upward
adjustments of obligations incurred only during the period for which the appropriation was
available for obligation or for paying claims attributable to the appropriations.

The obligated balance not yet disbursed includes accounts payable, accrued expenses, and
undelivered orders that have reduced unexpended appropriations but have not yet decreased the
fund balance on hand (see also Note 8).




                                                40
NOTE 3. OTHER ASSETS

Other assets account balances as of September 30, 2012 and 2011, were as follows:

                                                                    2012                              2011
Intragovernmental
  Advances and Prepayments                                     $          45,568              $         15,758
With the Public
  Grant Advances                                               $        2,280,568             $       1,617,605
Total Other Assets                                             $        2,326,136             $       1,633,363

NOTE 4. PROPERTY, EQUIPMENT, AND SOFTWARE

Schedule of Property, Equipment, and Software as of September 30, 2012

                                                                Accumulated
                                       Acquisition              Amortization/                     Net Book
Major Class                               Cost                  Depreciation                       Value
Furniture & Equipment                 $      14,965             $      14,965                 $                -
Total                                 $      14,965             $      14,965                 $                -

Schedule of Property, Equipment, and Software as of September 30, 2011

                                                                Accumulated
                                       Acquisition              Amortization/                     Net Book
Major Class                               Cost                  Depreciation                       Value
Furniture & Equipment                 $      38,078             $      38,078                 $                -
Total                                 $      38,078             $      38,078                 $                -

NOTE 5. LIABILITIES NOT COVERED BY BUDGETARY RESOURCES

The liabilities for the IAF as of September 30, 2012 and 2011 include liabilities not covered by
budgetary resources. Congressional action is needed before budgetary resources can be provided.
Although future appropriations to fund these liabilities are likely and anticipated, it is not certain
that appropriations will be enacted to fund these liabilities.

                                                                              2012                     2011
Unfunded Leave - Total Liabilities Not Covered by Budgetary Resources     $         376,619       $      405,050
Total Liabilities Covered by Budgetary Resources                                1,553,053               2,016,648
Total Liabilities                                                         $     1,929,672         $     2,421,698


Unfunded leave represents a liability for earned leave and is reduced when leave is taken. The
balance in the accrued annual leave account is reviewed quarterly and adjusted as needed to
accurately reflect the liability at current pay rates and leave balances. Accrued annual leave is
paid from future funding sources and, accordingly, is reflected as a liability not covered by
budgetary resources. Sick and other leave is expensed as taken.


                                                     41
NOTE 6. OTHER LIABILITIES

Other liabilities account balances as of September 30, 2012 were as follows:

                                                      Current                      Total
Intragovernmental
  Liability for Advances and Prep ay ments        $        672,450             $      672,450
  Pay roll Taxes Pay able                                    62,534                    62,534
Total Intragovernmental Other Liabilities         $        734,984             $      734,984


With the Public
  Pay roll Taxes Pay able                         $          16,718            $       16,718
  Accrued Funded Pay roll and Leave                        262,058                    262,058
  Unfunded Leave                                           376,619                    376,619
Total Public Other Liabilities                    $        655,395             $      655,395


Other liabilities account balances as of September 30, 2011 were as follows:

                                                      Current                      Total
Intragovernmental
  Liability for Advances and Prepayments          $        750,185             $      750,185
  Payroll Taxes Payable                                      69,292                    69,292
Total Intragovernmental Other Liabilities         $        819,477             $      819,477


With the Public
  Accrued Funded Payroll and Leave                $        236,971             $      236,971
  Unfunded Leave                                           405,050                    405,050
Total Public Other Liabilities                    $        642,021             $      642,021


The IAF only has Current Liabilities – no Non-Current Liabilities.

NOTE 7. COMMITMENTS AND CONTINGENCIES

In the course of the agency's grant-making activities, the IAF has unliquidated grant obligations
which, in the absence of violations or cancellations of the grant agreements, will require
disbursements. Unliquidated grant obligations at September 30, 2012 and 2011 total
approximately $22,892,066 and $23,119,089, respectively.

NOTE 8. UNDELIVERED ORDERS AT THE END OF THE PERIOD

For the fiscal years ended September 30, 2012 and 2011, undelivered orders amounted to
$30,813,425 and $28,842,399 respectively.
                                               42
NOTE 9. INTRAGOVERNMENTAL COSTS AND EXCHANGE REVENUE

Intragovernmental costs and revenue represent exchange transactions between the IAF and other
federal government entities, and are in contrast to those with non-federal entities (the public).
Such costs and revenue are summarized as follows:

                                                           2012                     2011
Foreign Grant Program
  Intragovernmental Costs                             $    3,192,371            $    3,648,063
  Public Costs                                            24,963,428                25,177,971
   Total Program Costs                                $   28,155,799            $   28,826,034
      Intragovernmental Earned Revenue                       (77,735)                  (99,814)
   Total Net Cost                                     $   28,078,064           $    28,726,220


NOTE 10. IMPUTED FINANCING SOURCES

The IAF recognizes as imputed financing the amount of accrued pension and post-retirement
benefit expenses for current employees. The assets and liabilities associated with such benefits
are the responsibility of the administering agency, OPM. For the fiscal years ended September
30, 2012 and 2011, imputed financing was $296,746 and $297,408, respectively.


NOTE 11. FINANCING SOURCES - SPTF

The Reconciliation of Net Cost of Operations to Budget Note reconciles the financial Net Cost of
Operations with the Statement of Budgetary Resources. The IAF reports SPTF funds obtained
from the IDB as offsetting collections earned. The IAF had no exchange revenue in fiscal year
2012 or 2011. For fiscal year 2012 and 2011, the IAF received $4,183,426 and $7,499,449
respectively, from the IDB, which was reported on its SF-133 as funds received from SPTF
collections.

                                                                2012                     2011
SPTF Cumulative Results:
 SPTF Beginning Balance                                    $   14,615,719            $   13,204,130
 SPTF Funds Received                                            4,207,978                 7,499,449
 SPTF Funds Expended                                           (4,788,950)               (6,087,860)
SPTF Fund Carry Forward                                    $   14,034,747            $   14,615,719
Donations Cumulative Results:
 Donations Beginning Balance                                        1,055                        33
 Donations Received                                                   300                     5,450
 Donations Expended                                                     -                    (4,428)
Donations Carry Forward                                    $        1,355            $        1,055
Total SPTF and Donations                                   $   14,036,102            $   14,616,774
 Cumulative Results of Operations – All Other Funds              (376,619)                 (405,050)
Total Cumulative Results of Operations                     $   13,659,483            $   14,211,724



                                               43
NOTE 12. BUDGETARY RESOURCE COMPARISONS TO THE BUDGET OF THE
UNITED STATES GOVERNMENT

The President’s Budget that will include fiscal year 2012 actual budgetary execution information
has not yet been published. The President’s Budget is scheduled for publication in February 2013
and can be found at the OMB Web site: http://www.whitehouse.gov/omb/. The 2013 Budget of
the United States Government, with the "Actual" column completed for 2011, has been
reconciled to the Statement of Budgetary Resources and there were no material differences.

NOTE 13. LEASES

Operating Leases

The IAF occupies office space under a lease agreement that is accounted for as an operating
lease. The previous lease term began on May 1, 2002 and expired on April 30, 2012. Lease
payments were increased annually based on the IAF's proportionate share of the building's
operating expenses and real estate taxes. Operating expenses were increased based on an
estimated CPI increase of 3% annually. The previous agreement allowed the IAF an abatement
credit in lieu of a build-out allowance, deducted from the monthly rent for the first 26 months of
the lease. The total operating lease expenses as of September 30, 2012 and 2011 were $377,315
and $762,694, respectively. With the end of the previous lease on 4/30/12, the IAF began a new
lease agreement. The new lease term began on May 1, 2012 and expires on April 30, 2017. The
new agreement will allow the IAF an abatement credit in lieu of a build-out allowance, deducted
from the monthly rent for the first 7 months of the lease.

Below is a schedule of future payments for the term of both leases.

Fiscal Year                                                                         Office Space
2013                                                                            $          665,414
2014                                                                                       701,601
2015                                                                                       706,501
2016                                                                                       711,547
2017                                                                                       417,002
Total Future Payments                                                           $         3,202,065


The operating lease amount does not include estimated payments for leases with annual renewal
options.

NOTE 14. EARMARKED FUNDS

The IAF has earmarked funds that fall into the following categories: Social Progress Trust Fund
(SPTF) and Gift Fund. Both funds are used to finance part of the IAF's grant program and remain
available until funds are exhausted.

Transactions are recorded on an accrual accounting basis and a budgetary basis. Under the
accrual method, revenues are recognized when earned and expenses are recognized when
liabilities are incurred, without regard to receipt or payment of cash. Budgetary accounting
measures the appropriations and consumption of budget authority and other budgetary resources
and facilitates compliance with legal constraints and controls over use of Federal funds.
Schedule of Earmarked Funds as of September 30, 2012:
                                               44
                                                                                                Total
                                               Social Progre ss                              Earmarke d
                                                 Trust Fund            Gift Fund               Funds
Balance She e t
Assets:
Fund Balance with T reasury                    $    13,309,392     $          1,355      $     13,310,747
Other Assets                                           725,355                       -           725,355
  T otal Assets                                $    14,034,747     $          1,355      $     14,036,102

Liabilities and Net Position:
Cumulative Results of Operations               $    14,034,747     $          1,355      $     14,036,102
  T otal Liabilities and Net Position          $    14,034,747     $          1,355      $     14,036,102

State me nt of Ne t C ost
Program Costs                                  $     4,788,950     $                 -   $      4,788,950
Less: Earned Revenues                               (4,207,978)                (300)           (4,208,278)
Net Cost of Operations                         $       580,972     $           (300)     $       580,672

State me nt of C hange s in Ne t Position
Net Position Beginning of Period               $    14,615,719     $          1,055      $     14,616,774
Net Cost of Operations                                 580,972                 (300)             580,672

Net Position End of Period                     $    14,034,747     $          1,355      $     14,036,102


Schedule of Earmarked Funds as of September 30, 2011:

                                                                                                Total
                                               Soci al Progre ss                             Earmarke d
                                                 Trust Fund            Gi ft Fund              Funds
Bal ance She e t
Asset s:
Fund Balance wit h T reasury                   $    14,122,705     $          1,055      $     14,123,760
Ot her Asset                                           493,014                       -           493,014
  T ot al Asset s                              $    14,615,719     $          1,055      $     14,616,774

Liabilit ies and Net Posit ion:
Cumulat ive Result s of Operat ions            $    14,615,719     $          1,055      $     14,616,774
  T ot al Liabilit ies and Net Posit ion       $    14,615,719     $          1,055      $     14,616,774

State me nt of Ne t C ost
Program Cost s                                 $     6,087,860     $          4,428      $      6,092,288
Less: Earned Revenues                               (7,499,449)              (5,450)           (7,504,899)
Net Cost of Operat ions                        $    (1,411,589)    $         (1,022)     $     (1,412,611)

State me nt of C hange s i n Ne t Posi ti on
Net Posit ion Beginning of Period              $    13,204,130     $                33   $     13,204,163
Net Cost of Operat ions                             (1,411,589)              (1,022)           (1,412,611)

Net Posit ion End of Period                    $    14,615,719     $          1,055      $     14,616,774




                                                     45
NOTE 15. APPORTIONMENT CATEGORIES OF OBLIGATIONS INCURRED

Obligations incurred and reported in the Statement of Budgetary Resources in 2012 and 2011
consisted of the following:

                                                              2012                        2011
Direct Obligations, Category A                            $    9,194,408             $     8,469,378
Direct Obligations, Category B                                21,071,353                  18,557,504
Reimbursable Obligations, Category B                             850,000                     850,000
Total Obligations Incurred                                $   31,115,761              $   27,876,882

Category A apportionments distribute budgetary resources by fiscal quarters.

Category B apportionments typically distribute budgetary resources by activities, projects, objects
or a combination of these categories.


NOTE 16. CUSTODIAL ACTIVITY

IAF’s custodial collection primarily consists of returned funds at IAF’s request from a grantee
due to funds mismanagement. The returned funds came from IAF’s appropriated fund (11 3/4
3100) which is no longer available for use; therefore, the funds must be returned to Treasury.
While these collections are considered custodial, they are not material to the overall financial
statements. IAF’s total custodial collections are $418 and $0 for the fiscal years ended September
30, 2012, and 2011, respectively.


NOTE 17. RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET

IAF has reconciled its budgetary obligations and non-budgetary resources available to its net cost
of operations.

                                                                           2012               2011
Resources Used to Finance Activities
Budgetary Resources Obligated
 Obligations Incurred                                                 $ 31,115,761        $ 27,876,882
 Spending Authority from Offsetting Collections and Recoveries          (5,465,530)         (8,852,782)
 Obligations Net of Offsetting Collections and Recoveries             $ 25,650,231        $ 19,024,100
Other Resources
  Donations and Forfeitures of Property                               $        300        $      5,450
  Imputed Financing from Costs Absorbed by Others                          296,746             297,408
  Net Other Resources Used to Finance Activities                      $    297,046        $    302,858
Total Resources Used to Finance Activities                            $ 25,947,277        $ 19,326,958
Total Resources Used to Finance Items Not Part of the Net Cost of
Operations                                                               2,159,218           9,383,093
Total Resources Used to Finance the Net Cost of Operations            $ 28,106,495        $ 28,710,051
Total Components of Net Cost of Operations That will not Require or
Generate Resources in the Current Period                                   (28,431)             16,169
Net Cost of Operations                                                $ 28,078,064        $ 28,726,220


                                                  46
